BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief for Pennsylvania School Boards
Association and Pennsylvania Principals Association
as Amici Curiae in Support of Petitioner in 20-255,
Mahanoy Area School District v. B. L., a Minor, By and
Through Her Father, Lawrence Levy and Her Mother,
Betty Lou Levy, were sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 1st day of October, 2020:
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com

Counsel for Petitioner
Arleigh Pritchard Helfer III
Schnader Harrison Segal & Lewis LLP
1600 Market Street, Suite 3600
Philadelphia, PA 19103
(215) 751-2430
ahelfer@schnader.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 1, 2020.

Donna J. Wo~
(/')
Becker Gallagher Le g'a:H?ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

ucff/ue, ( 1

JZJW (],

Notary Public
[seal]

d();JQ

~

